HHS/OIG, Audit - "Review of Missouri's Undistributable Child Support
Collections," (A-07-05-03069)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Missouri's
Undistributable Child Support Collections," (A-07-05-03069)
July 18, 2006
Complete Text of Report is available in PDF format (555 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our
review were to determine whether the Department of Social Services (State agency) appropriately reported
program income for (1) undistributable child support collections that met the
States definition of abandoned property and (2) interest earned on program
funds.  We found that the State agency did not always report program
income for (1) undistributable child support collections that met the States
definition of abandoned property or (2) interest earned on program funds.
The State agency did not always report program income because in certain
circumstances it either (1) had inadequate policies and procedures or (2) did
not follow its policies and procedures.  As a result, for the period
October 1, 1998, through September 30, 2005, the State agency did not recognize
and report program income totaling an estimated $692,618 ($457,128 Federal
share).
We recommended that the State
agency:
(1) report on the quarterly Federal financial report (form OCSE-396A)
$361,439 ($238,550 Federal share) in Title IV-D program income that has been
transferred to the State Treasurer as abandoned property;
(2)  report $331,179 ($218,578 Federal share) in Title IV-D program
income on form OCSE-396A after it: works with St. Louis city officials from the
County Circuit Clerks office to close the open bank account and transfer the
undistributable child support collections and interest income to the State
Treasurer, and transfers the $74,702 ($49,303 Federal share) of Title IV-D
undistributable child support collections within the MACSS to the State
Treasurer as abandoned property; (3) work with OCSE to review the other 111
County Circuit Clerk offices and determine whether they have appropriately
declared and transferred to the State Treasurer any remaining undistributable
child support collections and interest income; (4) report any remaining
undistributable child support collections and interest income from the other 111
County Circuit Clerk offices as program income on form OCSE-396A; (5) revise its
policies and procedures to ensure that undistributable child support collections
are considered abandoned within 3 years from the date the collections could have
been claimed by the owner; and (6) provide training to personnel responsible for
preparing the quarterly Federal financial report forms OCSE-34A and OCSE-396A to
ensure that the forms are completed appropriately.  The State agency agreed
with all of our audit findings and recommendations.  The State agency comments
are included in their entirety as Appendix B.